            AUDIT OF THE 

ARLINGTON HEIGHTS POLICE DEPARTMENT'S 

EQUITABLE SHARING PROGRAM ACTIVITIES 

       ARLINGTON HEIGHTS, ILLINOIS

        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 


       Audit Report GR-50-14-003 

               April 2014 

                           AUDIT OF THE

               ARLINGTON HEIGHTS POLICE DEPARTMENT’S

               EQUITABLE SHARING PROGRAM ACTIVITIES

                    ARLINGTON HEIGHTS, ILLINOIS


                                  EXECUTIVE SUMMARY


       The U.S. Department of Justice (DOJ), Office of the Inspector General (OIG),
Audit Division, has completed an audit of the use of DOJ equitable sharing revenues
by the village of Arlington Heights, Illinois, Police Department (Arlington
Heights PD). Equitable sharing revenues represent a share of the proceeds from
the forfeiture of assets seized in the course of certain criminal investigations. 1
During the period of May 1, 2010, through April 30, 2012, the Arlington Heights PD
received $1,393,971 in DOJ equitable sharing revenues to support law enforcement
operations. 2

        The objective of the audit was to assess whether equitably shared cash and
property received by the Arlington Heights PD was accounted for properly and used
for allowable purposes as defined by the applicable regulations and guidelines. We
found that the Arlington Heights PD complied with equitable sharing guidelines with
respect to permissible uses of equitable sharing funds. However, we identified the
following deficiencies:

       •	 The Arlington Heights PD did not separately account for its fiscal
          year (FY) 2012 DOJ equitable sharing revenues in the official accounting
          records, as specifically required by the equitable sharing guidelines. In
          addition to the $203,061 in DOJ equitable sharing funds received during
          FY 2012, the Arlington Heights PD recorded $1,324 of non-DOJ equitable
          sharing revenues to the account that is supposed to be solely for DOJ
          equitable sharing revenues.

       •	 The Arlington Heights PD submitted inaccurate Equitable Sharing
          Agreement and Certification Reports for FY 2011 and FY 2012.
          Specifically, the Arlington Heights PD did not accurately reflect the
          equitable sharing fund expenditures by category – ranging from a
          difference of less than $1 in the informant category to a difference of
          $1,500 in the equipment category. In addition, the Arlington Heights PD
          did not accurately report non-cash assets received. For example, on the


         1
           The DOJ asset forfeiture program has three primary goals: (1) to punish and deter criminal
activity by depriving criminals of property used or acquired through illegal activities; (2) to enhance
cooperation among federal, state, and local law enforcement agencies through equitable sharing of
assets recovered through this program; and, as a by-product, (3) to produce revenues to enhance
forfeitures and strengthen law enforcement.
       2
           The Arlington Heights PD’s fiscal year begins on May 1 and ends on April 30.
         FY 2011 certification report the Arlington Heights PD included non-cash
         assets received through a state seizure, while the certification report
         should only include non-cash assets received through a federal seizure.
         Moreover, the accounting code used to capture interest income earned on
         DOJ equitable sharing funds was also used for interest income earned on
         other non-DOJ federal and state equitable sharing funds received.

      •	 The Arlington Heights PD did not maintain a copy of all equitable sharing
         requests forwarded to DOJ, and the requests were not consecutively
         numbered, as required by equitable sharing guidelines.

        Our report contains four recommendations that address the weaknesses we
identified. Our findings are discussed in detail in the Findings and
Recommendations section of the report. The audit objective, scope, and
methodology are included in Appendix I.
                                           TABLE OF CONTENTS


INTRODUCTION ............................................................................................ 1

  Background.................................................................................................... 1

  OIG Audit Approach ........................................................................................ 2


FINDINGS AND RECOMMENDATIONS.............................................................. 3

  Accounting for Equitably Shared Resources ........................................................ 3

  Compliance with Audit Requirements................................................................. 5

  Equitable Sharing Agreement and Annual Certification Report .............................. 6

  Use of Equitably Shared Resources ................................................................... 9

  Monitoring Applications for Transfer of Federally Forfeited Property..................... 10

  Views of Responsible Officials ......................................................................... 11

  Recommendations ........................................................................................ 11


APPENDIX I:           OBJECTIVE, SCOPE, AND METHODOLOGY .............................. 12


APPENDIX II:          AUDITEE RESPONSE ............................................................. 14


APPENDIX III: U.S. DEPARTMENT OF JUSTICE RESPONSE........................... 16


APPENDIX IV:           OFFICE OF THE INSPECTOR GENERAL

                          ANALYSIS AND SUMMARY OF ACTIONS

                          NECESSARY TO CLOSE THE REPORT............................... 18

                                      INTRODUCTION
       The U.S. Department of Justice (DOJ), Office of the Inspector General (OIG),
Audit Division, has completed an audit of the use of DOJ equitable sharing revenues
by the village of Arlington Heights, Illinois, Police Department (Arlington
Heights PD). The audit covered the Arlington Heights PD’s fiscal years (FY) 2011
and 2012. 3 During that period, the Arlington Heights PD received $1,393,971 in
equitable sharing revenues from DOJ to support law enforcement operations. The
objective of the audit was to assess whether equitably shared cash and property
received by the Arlington Heights PD was accounted for properly and used for
allowable purposes as defined by the applicable regulations and guidelines.

Background

       The primary mission of the DOJ Asset Forfeiture Program is to employ asset
forfeiture powers in a manner that enhances public safety and security. This is
accomplished by removing the proceeds of crime and other assets relied upon by
criminals and their associates to perpetuate their criminal activity against our
society. Asset forfeiture has the power to disrupt or dismantle criminal
organizations that would continue to function if we only convicted and incarcerated
specific individuals.

        Another purpose of the DOJ Asset Forfeiture Program is to enhance
cooperation among federal, state, and local law enforcement agencies by sharing
federal forfeiture proceeds through the DOJ equitable sharing program. State and
local law enforcement agencies may receive equitable sharing revenues by
participating directly with DOJ agencies in joint investigations leading to the seizure
or forfeiture of property. The amount shared with the state and local law
enforcement agencies in joint investigations is based on the degree of the agencies’
direct participation in the case. The U.S. Department of the Treasury (Treasury)
administers a similar equitable sharing program. Our audit was limited to equitable
sharing revenues received through the DOJ equitable sharing program.

        Although several DOJ agencies are involved in various aspects of the seizure,
forfeiture, and disposition of equitable sharing revenues, the DOJ Criminal Division,
Asset Forfeiture and Money Laundering Section (AFMLS), is responsible for issuing
policy statements, implementing governing legislation, and monitoring the use of
DOJ equitable sharing funds. Generally, the use of equitable sharing revenues by
state and local recipient agencies is limited to law enforcement purposes. However,
under certain circumstances, up to 15 percent of the total equitable sharing
revenues received by the agency in the last 2 fiscal years may be used for the costs
associated with drug abuse treatment, drug and crime prevention education,
housing and job skills programs, or other nonprofit community-based programs or
activities. This provision requires that all expenditures be made by the law
enforcement agency and does not allow for the transfer of cash.


      3
          The Arlington Heights PD’s fiscal year begins on May 1 and ends on April 30.
      The Arlington Heights PD is located in the village of Arlington Heights, Illinois,
approximately 25 miles northwest of Chicago. With a population of approximately
75,000, it is the 12th largest municipality in Illinois. As of May 2013, the Arlington
Heights PD’s authorized workforce was 109 sworn officers and 30 civilian personnel.

OIG Audit Approach

       We tested compliance with what we considered the most important
conditions of the DOJ equitable sharing program. Unless otherwise stated, we
applied the Guide to Equitable Sharing for State and Local Law Enforcement
Agencies, dated April 2009 (2009 Equitable Sharing Guide) as our primary criteria.
The 2009 Equitable Sharing Guide identifies the accounting procedures and
requirements for tracking equitably shared monies and tangible property,
establishes reporting and audit requirements, and defines the permissible uses of
equitably shared resources.

       To conduct the audit, we tested the Arlington Heights PD’s compliance with 

 the following aspects of the DOJ equitable sharing program:


      •	 Accounting for equitably shared resources to determine whether
         standard accounting procedures were used to track equitable sharing
         assets.

      •	 Compliance with audit requirements to ensure the accuracy,
         consistency, and uniformity of audited equitable sharing data.

      •	 Equitable Sharing Agreement and Annual Certification Reports to
         determine if these documents were complete, accurate, and timely
         submitted.

      •	 Use of equitably shared resources to determine if equitable sharing
         funds were spent for permissible uses.

      •	 Monitoring of Applications for Transfer of Federally Forfeited
         Property to ensure adequate controls were established.

      See Appendix I for more information on our objective, scope, and 

 methodology.





                                         - 2 –

                 FINDINGS AND RECOMMENDATIONS

      We found that the Arlington Heights PD expended DOJ equitable
      sharing funds in accordance with the permissible uses articulated in
      the equitable sharing guidelines. However, we found that DOJ
      equitably shared receipts were not separately accounted for in the
      official accounting records. We also identified errors in the FY 2011
      and FY 2012 Equitable Sharing Agreement and Certification Reports
      submitted by the Arlington Heights PD. Specifically, the
      Arlington Heights PD incorrectly categorized several expenditures
      and inaccurately reported non-cash assets received. In addition, we
      found that the Arlington Heights PD did not separately account for
      interest income earned on DOJ equitable sharing funds. Finally, the
      Arlington Heights PD did not maintain copies of all equitable sharing
      requests, and the requests contained within the Arlington
      Heights PD’s log were not consecutively numbered as required by
      the 2009 Equitable Sharing Guide.

Accounting for Equitably Shared Resources

        The 2009 Equitable Sharing Guide requires that all participating state and
local law enforcement agencies implement standard accounting procedures to track
equitably shared monies and property. Additionally, DOJ equitable sharing funds
must be accounted for separately from any other funds.

       To determine whether the Arlington Heights PD’s accounting procedures
adequately tracked equitably shared monies and property and separately accounted
for DOJ equitable sharing funds, we compared AFMLS equitable sharing distribution
reports to the Arlington Heights PD’s accounting records. We also considered the
results of our work performed as reported in the Use of Equitably Shared Resources
section of this report.

       We reviewed the AFMLS report of DOJ equitable sharing distributions, which
disclosed that the Arlington Heights PD received equitable sharing funds totaling
$1,393,971 during the period of May 1, 2010, through April 30, 2012. To verify the
total amount of equitable sharing funds received during our review period, we
compared the receipts listed on the Arlington Heights PD’s Equitable Sharing
Agreement and Annual Certification Reports (certification report) to the total
amounts listed as disbursed on the DOJ’s Consolidated Asset Tracking System
(CATS) reports. As shown in Figure 1, we did not identify any discrepancies.




                                       - 3 –

                                 FIGURE 1 . RECEIPTS COMPARISON 

                                          ·

                            Receipts pel" Certification         Disburseme nts pel" CATS
       Fis cal Year                                                                         Differenc e
                                     Report                              Report

          2011                       $1 , 190 ,909                    $1 , 190,909              $0
          2012                           203,062                         203, 062                0

      Totals
                                     .
                              $ 1 393 971                       $ 1 3 93971
 Source. Arlington Heights PO s certification reports and CATS report
                                                                                                $0


        Fro m May 20 10 through Apri l 20 12, the CATS repo rt recorded equita ble
shari n g receipts totaling $ 1,393,97 1 for the A rlin gton Heights PDf as shown in
Figure 1. We reconci led the CATS report to the E-Share log f rom the USMS and
found that the individual receipts reco rded in the two sources were identical. 4 As
shown in Figure 2, we the n judgmentaUy selected and reviewed five of the highest
receipts from FY 20 11 and FY 2012, totali n g $1,254,700, to ensure that these
monies were properly deposited and t imely reco rded by t he A rlington Heights PD.
We fou n d that the A rlington Heights PD approp r iately deposited its asset forfeiture
receipts and reco rded them in its accounting reco rds in a timely manner.

                  .
          FIGURE 2· SAMPLED RECEIPTS IN FY 2011 AND FY 2012


Sample            Date Rec eived              Amount             Date Rec eived pel" the     Amount
                   pel" E- Share                                 Al"lington Heights PO' s
 Count                Report                  Received                                       Received
                                                                         Recol"ds


   1                  10/ 18/ 2010                   $277,06C          10/ 18/ 2010             $277,06
   2                  01/ 27/ 2011                     17,01C         01/ 27/ 2011                   17, 01
   3                  03/ 02/ 2011                    234,05          03/ 02/ 2011                234,05
   4                  03/ 14/ 2011                    646,533         03/ 14/ 2011                646,53
   5                  04/ 26/ 2012                     80,041         04/ 26/ 2012                   80, 04
           Totals                       $1,254,70C                                            $1,254,70
                                                                ,
  Source: E-Share log from t he USMS and the Arhngton Heights PD s accountin g records


        While examining the equitab le sharing receipts, we determ ined that the
Arlington Heights PD received all DO] asset forfeiture funds via Electronic Fund
Transfers ( EFT), and that the funds were deposited into a general, interest-bearing
bank account. Although we confi r med t hat the village of Ar lin gton Heig hts uses a
separate accounting code to track DO] asset forfeiture f unds, we fou n d that the
village of A rlington Heights also used this accounting code when reco rding non-DO]
fede ral asset forfeiture funds received in FY 2012 . We discussed t his issue with the
Assistant Finance Director who ackn owledged that other non-DO] federal equitable
shari n g funds were reco rded to t he same account used fo r tracking DO] equitable
sharing receipts . However, th is officia l exp lained that it is ra re for the

        4 E- Share is the USMS program used to make equita bl e sharing payments to fede ral, state,
and loca l law enforcement agencies t hrough Electronic Funds T ransfer.

                                                       · 4 ­
Arlington Heights PD to receive asset forfeiture funds from other federal agencies
besides DOJ, and acknowledged that the deposits are not clearly marked to identify
to what agency the funds are associated. The Assistant Finance Director further
explained that because this error was identified after the fiscal year had been
closed out and the dollar amount of these non-DOJ equitable sharing funds was
minimal, no corrections were made to the official accounting records. She stated
that going forward, any non-DOJ equitable sharing receipts will be placed in
another account, not the account designated solely for DOJ equitable sharing
receipts. To avoid any similar occurrences in the future, we believe that the village
of Arlington Heights should establish procedures to ensure that the accounting code
assigned for DOJ equitable sharing receipts is not also used for non-DOJ equitable
sharing receipts, and that any such occurrences are identified and corrected in the
official accounting records prior to the fiscal year close out.

       Because DOJ asset forfeiture funds are deposited into a general, interest-
bearing bank account, the village of Arlington Heights must also ensure that it
properly accounts for the interest income earned on the DOJ asset forfeiture funds.
We found that the village of Arlington Heights did not accurately account for the
interest income earned on DOJ asset forfeiture funds. This is further discussed in
the Equitable Sharing Agreement and Annual Certification Report section of this
report.

        We also noted that the Arlington Heights PD’s certification reports indicated
that the Arlington Heights PD received equitably shared tangible property.
According to the FY 2011 certification report, the Arlington Heights PD received a
computer, camcorder, and television. The FY 2012 certification report indicated
that the Arlington Heights PD received 22 electronic tablet devices. Our testing of
these non-cash assets is addressed in the Equitable Sharing Agreement and Annual
Certification Report section of this report.

Compliance with Audit Requirements

       The 2009 Equitable Sharing Guide requires the Arlington Heights PD to
comply with audit requirements of the Single Audit Act Amendments of 1996 and
Office of Management and Budget Circular A-133, Audits of States, Local
Governments, and Non-Profit Organizations (OMB Circular A-133). OMB Circular
A-133 requires non-federal entities to prepare a Schedule of Expenditures of
Federal Awards for the period covered by the auditee's financial statements,
provided that they have expended $500,000 or more in federal funds in a given
year. The Schedule of Expenditures of Federal Awards is included within the
entity’s Single Audit Report.

       To determine if the Arlington Heights PD accurately reported DOJ equitable
sharing fund expenditures on its Schedule of Expenditures of Federal Awards, we
reviewed the Arlington Heights PD’s accounting records and the village of
Arlington Heights’ Single Audit Reports for the fiscal years ended 2011 and 2012.
We found that the village of Arlington Heights accurately reported DOJ equitable


                                        - 5 –

sharing fund expenditures on the Schedule of Expenditures of Federal Awards, for
both fiscal years, as required by OMB Circular A-133.

Equitable Sharing Agreement and Annual Certification Report

       AFMLS requires that any state or local law enforcement agency that receives
forfeited cash, property, or proceeds because of a federal forfeiture submit an
Equitable Sharing Agreement and Annual Certification Report (certification report).
The submission of this form is a prerequisite for the approval of any equitable
sharing request. Noncompliance may result in the denial of the agency’s sharing
request. The certification report must be submitted every year within 60 days after
the end of the agency’s fiscal year regardless of whether funds were received or
maintained during the fiscal year. The head of the law enforcement agency and a
designated official of the local governing body must sign the agreement. By signing
the agreement, the signatories agree to be bound by the statutes and guidelines
that regulate the equitable sharing program and certify that the law enforcement
agency will comply with these guidelines and statutes.

       The village of Arlington Heights’ Finance Department (Finance Department)
and Arlington Heights PD are involved in completing the certification reports. The
Finance Department categorizes the equitable sharing fund expenditures by
manually writing the applicable category on the accounting records because the
accounting system is not capable of incorporating the same categories as used on
the certification reports. The Finance Department forwards this document to the
Arlington Heights PD to review the categories assigned to the expenditures and to
make any necessary revisions. The Arlington Heights PD is also responsible for
informing the Finance Department of any non-cash assets received during the
applicable fiscal year. After receiving the necessary information from the
Arlington Heights PD, the Finance Department completes the certification report,
including its computation of the interest income accrued and total equitable sharing
funds received for the fiscal year. The Finance Department then provides the
completed report to the Arlington Heights PD for another review. Prior to
submitting the certification reports, the Chief of Police and the Village Manager sign
the reports.

        We tested compliance with the certification report requirements to determine
if the required forms for FYs 2011 and 2012 were accurate and complete. We
determined that the amount of equitable sharing funds received and total amount
of expenditures reflected on the FY 2012 certification report were consistent with
the village of Arlington Heights’ accounting records as were the amount of equitable
sharing funds received on the FY 2011 certification report. However, we identified
inaccuracies with the reported dollar amounts expended by category, interest
income accrued, and non-cash assets received on the FY 2011 and FY 2012 reports,
as well as the total amount of expenditures reflected on the FY 2011 report.




                                        - 6 –

Categorization of Equitable Sharing Expenditures

        The certification reports include a section to summarize the shared monies
spent by specific categories, such as personnel costs, travel and training, weapons
and protective gear, and electronic surveillance. To determine the accuracy of this
section of the certification reports, we asked the Finance Department for
documentation to support the shared monies spent by category. However, the
Finance Department did not retain the documents it used when recording the
shared monies spent by category. As a result, the Finance Department provided a
listing of FY 2011 and FY 2012 expenditures with individual categories hand-written
beside the transactions. Using this documentation, we computed the total
expenditures by category for each fiscal year and compared the results to the
amounts reflected on the certification reports. We found that the category totals of
shared monies spent as reflected on the certification reports did not match the
expenditure category totals as provided by the auditee – ranging from a difference
of less than $1 in the informant category to a difference of $1,500 in the equipment
category. In addition, we found that on the FY 2011 certification report, the
auditee reported $1,133 in expenditures within the “Informant, buy money, and
rewards” category, and we were unable to trace this amount in the accounting
records.

        We discussed these issues with the Assistant Finance Director who
acknowledged that some of the transactions were incorrectly categorized, thus
contributing to the differences identified with some of the category totals. An
official from the Arlington Heights PD also explained that $1,133 in the “Informant,
buy money, and rewards” category should not have been included on the FY 2011
certification report because the Arlington Heights PD did not use DOJ equitable
sharing funds for that expenditure. We believe the auditee should develop a
reliable mechanism to assign categories to each expenditure when it occurs and
maintain an on-going record of expenditures by category.

Computation and Reporting of Interest Income

        In addition to summarizing the shared monies spent by category on the
certification reports, entities are to report the amount of interest income earned
during the given reporting period. Based upon our review of the supporting
documentation provided by the Finance Department, we found that the interest
income reported on the FY 2011 and FY 2012 certification reports was inaccurate.
According to the 2009 Equitable Sharing Guide, agencies must deposit any interest
income earned on equitable sharing funds in the same revenue account or under
the accounting code established solely for the shared funds. However, the
supporting documentation for the interest income earned revealed that the
accounting code used to capture interest income earned on DOJ equitable sharing
funds was also used for interest income earned on other non-DOJ federal and state
equitable sharing funds received. The Assistant Finance Director confirmed that the
village of Arlington Heights uses one account for all interest income earned on
equitable sharing funds received. This official further stated that the allocation of
interest income earned based upon the equitable sharing monies received is an

                                        - 7 –

approximation. For instance, on the FY 2012 certification report, the village of
Arlington Heights reported $9,112 in interest income earned on DOJ equitable
sharing funds, which was 100 percent of the interest income earned on all equitable
sharing funds received, not just DOJ funds. Similarly, the FY 2011 certification
report indicated that $7,532 in interest income was earned on DOJ equitable
sharing funds. According to the Assistant Finance Director, this amounted to
90 percent of the total interest income earned on all equitable sharing funds
received at the time the certification report was prepared. The Assistant Finance
Director stated that because the amount of interest income earned on equitable
sharing funds is minimal, interest income is not calculated as an exact amount for
each source of equitable sharing revenues. We believe that the village of Arlington
Heights should separately compute and account for the actual interest income
earned on DOJ equitable sharing funds received, as required by the 2009 Equitable
Sharing Guide.

Reporting of Non-cash Assets

        As with the summary of shared monies spent by category and the interest
income earned, the certification reports also include a section to describe any
non-cash assets received. During our review of the FY 2011 and FY 2012
certification reports, we attempted to verify the receipt of the non-cash assets
listed on the forms. The Arlington Heights PD’s FY 2011 certification report
identified that it received certain electronics items – a video recorder, a 52-inch
television, and a personal computer. However, none of these items were listed on
the 2011 CATS report provided by the USMS. An official from the Arlington
Heights PD explained that the Arlington Heights PD received these items through a
state seizure, not a federal seizure. Therefore, the items should not have been
listed on the FY 2011 certification report to DOJ.

        On the FY 2012 certification report, the Arlington Heights PD identified that it
received 22 electronic tablet devices and did not identify whether these assets were
received through the DOJ or Treasury equitable sharing program. Upon further
review of supporting documentation and an interview with an Arlington Heights PD
official, we found that the Arlington Heights PD actually received 20 tablets and
thus the submitted certification report was in error. The Arlington Heights PD
official also indicated that the assets received were associated with a non-DOJ
federal seizure.

        We recommend that the Arlington Heights PD establish procedures to ensure
that it submits accurate and complete certification reports. As part of these
procedures, the Arlington Heights PD must ensure that expenditures are
appropriately categorized when the expenditures are incurred, and that it
implements a mechanism that retains the categories applied to the expenditures.
Further, the Arlington Heights PD should ensure that interest income earned is
calculated properly, and that it properly reports non-cash assets received. The
Arlington Heights PD should submit revised certification reports for FY 2011 and
FY 2012 that accurately reflect its equitable sharing activities during those time
periods.

                                         - 8 –

Use of Equitably Shared Resources

        The 2009 Equitable Sharing Guide requires that equitable sharing funds
received by state and local agencies be used for law enforcement purposes.
However, under certain circumstances, up to 15 percent of the total equitable
sharing revenues the agency received in the last 2 fiscal years may be used for the
costs associated with nonprofit community-based programs or activities, such as
drug abuse treatment, drug and crime prevention education, and housing and job
skills programs. Law enforcement agencies can also transfer cash to another law
enforcement agency.

Use of Equitably Shared Funds

       According to its accounting records, the Arlington Heights PD expended DOJ
equitable sharing funds totaling $200,746 in FY 2011 and $105,100 in FY 2012, for
a total of $305,846. We judgmentally selected and tested 23 transactions totaling
$194,419, or 64 percent of the total funds expended, to determine if the
expenditures of DOJ equitable sharing funds were allowable and supported by
adequate documentation. We determined that of the sampled transactions, the
Arlington Heights PD spent $93,942 for capital improvements to its facilities;
$39,894 for other law enforcement expenses, such as costs associated with its
canine unit, annual accreditation fees, and equipment; $35,369 for communication
and computers; $7,750 for travel and training; $13,350 for electronic surveillance;
and $4,114 for weapons. Based upon our review of the supporting documentation
provided by the Arlington Heights PD, we determined that its DOJ equitable sharing
fund expenditures were supported by adequate documentation and were used for
appropriate purposes as outlined in the 2009 Equitable Sharing Guide.

Use of Equitably Shared Property

       The 2009 Equitable Sharing Guide requires that any forfeited tangible
property transferred to a state or local agency for official use must be used for law
enforcement purposes only. Further, vehicles and other tangible property
transferred to official law enforcement use must be used accordingly for at least
2 years. However, if the property becomes unsuitable for such stated purposes
before the end of the 2-year period, it may be sold with approval from AFMLS and
the proceeds are to be deposited in the agency’s DOJ equitable sharing revenue
account.

       During our review of the FY 2011 and FY 2012 certification reports, we
identified problems with the accuracy of the non-cash assets reported, as discussed
in the Equitable Sharing Agreement and Annual Certification Report section of this
report. As noted in that section of our report, the non-cash assets reported by the
Arlington Heights PD were not associated with a DOJ investigation resulting in a
federal forfeiture. Therefore, it was not necessary to ensure that the
Arlington Heights PD used the non-cash assets in accordance with the
2009 Equitable Sharing Guide.


                                        - 9 –

Monitoring Applications for Transfer of Federally Forfeited Property

       The 2009 Equitable Sharing Guide states that all participating agencies
should maintain a log of all sharing requests that consecutively numbers the
requests and includes the seizure type, seizure amount, share amount requested,
amount received, and date received for each request. Agencies complete a
Form DAG-71 (Application for Transfer of Federally Forfeited Property) when
requesting its portion of equitable sharing funds. The 2009 Equitable Sharing Guide
requires that the log be updated when an E-Share notification is received.

       We confirmed that the Arlington Heights PD maintains a binder of its
DAG-71s (or sharing requests) and that the sharing requests contain all of the
required information. The binder is comprised of two sections. One section
contains the sharing requests that are in pending status (i.e., the Arlington
Heights PD has not yet received any equitable sharing funds). The other section
contains those requests for which the Arlington Heights PD received equitable
sharing funds; the Arlington Heights PD refers to this section as completed
requests. The Arlington Heights PD attaches the E-Share notification to these
completed requests.

       During our review, we found that the requests were not consecutively
numbered and that six DAG-71s were missing. We brought these issues to the
attention of the Arlington Heights PD official who is responsible for maintaining the
log. He explained that the six missing DAG-71s were requests that were submitted
in his absence, and copies of the forms were not provided to him. As a result of
these missing forms, the Arlington Heights PD issued a memorandum to the Task
Force Officer who prepares the DAG-71s that articulated that copies of all DAG-71s
must be retained in the binder. Because the Task Force Officer is the only
individual responsible for preparing the DAG-71s, the Arlington Heights PD only
issued the memorandum to him. Although the Arlington Heights PD issued a
memorandum to the individual responsible for completing the DAG-71s, we believe
that the Arlington Heights PD should incorporate in its formal, written procedures
the requirement to maintain copies of all DAG-71s so that all personnel are aware
of the requirement in case someone else takes on this responsibility. The Arlington
Heights PD official who is responsible for the log also stated that he will establish a
numbering system so that all DAG-71s are consecutively numbered and tracked as
required by the 2009 Equitable Sharing Guide. We believe that the Arlington
Heights PD should establish a formal, written procedure to ensure all DAG-71s are
consecutively numbered.

Supplanting

       The 2009 Equitable Sharing Guide requires that shared resources be used to
increase or supplement the resources of the recipient agency and prohibits the use
of shared resources to replace or supplant the appropriated resources of the
recipient. To test whether equitable sharing funds were used to supplement rather
than supplant local funding, we reviewed the Arlington Heights PD’s budgets for
FYs 2010 through 2014 and sampled FY 2011 and FY 2012 expenditures.

                                        - 10 –

       Through our review of the Arlington Heights PD’s budget documents, we
found that the Arlington Heights PD’s total budgeted appropriations have steadily
increased between 3 and 4 percent from one fiscal year to the next. Further, our
testing of the sampled expenditure transactions did not reveal any evidence of
supplanting. Therefore, we did not identify any indications that the village of
Arlington Heights used DOJ equitable sharing funds to supplant the
Arlington Heights PD’s budget.

Views of Responsible Officials

       We discussed the results of our review with officials from the
Arlington Heights PD and the village of Arlington Heights’ Finance Department
throughout the audit and at a formal exit conference. Their input on specific issues
has been included in the appropriate sections of the report.

Recommendations

We recommend that the Criminal Division:

   1.	 Ensure that the Arlington Heights PD establishes procedures to confirm that
       only DOJ equitable sharing receipts are contained within the ledger account
       created for such receipts, and to make proper adjustments in the official
       accounting records for any non-DOJ equitable sharing receipts assigned to
       this account.

   2.	 Ensure that the Arlington Heights PD establishes procedures for submitting
       accurate and complete Equitable Sharing Agreement and Certification
       Reports. These procedures should include a process to appropriately
       categorize equitable sharing expenditures on an ongoing basis, separately
       account for and accurately compute interest income earned on DOJ equitable
       sharing funds, and correctly report non-cash assets received.

   3.	 Ensure that the Arlington Heights PD submits revised FY 2011 and FY 2012
       Equitable Sharing Agreement and Annual Certification Reports that accurately
       and completely reflect its equitable sharing activities during these time
       periods.

   4.	 Ensure that the Arlington Heights PD establishes procedures to maintain all
       equitable sharing requests submitted to DOJ and consecutively number its
       equitable sharing request log as required.




                                       - 11 –

                                                                         APPENDIX I



                OBJECTIVE, SCOPE, AND METHODOLOGY

       We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective.

      The objective of the audit was to assess whether equitably shared cash and
property received by the requesting agency was accounted for properly and used for
allowable purposes as defined by the applicable regulations and guidelines. We tested
compliance with what we considered the most important conditions of the DOJ
equitable sharing program. We reviewed laws, regulations, and guidelines governing
the accounting for and use of DOJ equitable sharing receipts, including the Guide to
Equitable Sharing for State and Local Law Enforcement Agencies, dated April 2009.
Unless otherwise stated in our report, the criteria we audit against are contained in
these documents.

Scope and Methodology

       Our audit concentrated on, but was not limited to, equitable sharing funds
received by the Arlington Heights PD from May 1, 2010, through April 30, 2012.
During this period, the Arlington Heights PD received $1,393,971 and expended
$305,846 in DOJ equitable sharing funds. We judgmentally selected 5 DOJ equitable
sharing receipts (totaling $1,254,700) and 23 expenditure transactions (totaling
$194,419) for testing. We applied a judgmental sampling design to obtain broad
exposure to numerous facets of the transactions reviewed, such as dollar amounts
and cost categories. This non-statistical sample design does not allow projection of
the test results to all transactions.

       We performed audit work at the Arlington Heights PD located in Arlington
Heights, Illinois. To accomplish the objective of the audit, we interviewed Arlington
Heights PD and Finance Department officials and examined records associated with
equitable sharing revenues and expenditures. In addition, we relied on computer-
generated data contained in CATS for determining equitably shared revenues and
property awarded to the Arlington Heights PD during the audit period. We did not
establish the reliability of the data contained in CATS as a whole. However, when the
data we used is viewed in context with other available evidence, we believe the
opinions, conclusions, and recommendations included in this report are valid.

       In planning and performing our audit, we considered internal controls
established and used by the Arlington Heights PD and the village of Arlington Heights
over DOJ equitable sharing receipts to accomplish our audit objective. We did not
assess the reliability of the Arlington Heights PD’s financial management system or
internal controls of that system or otherwise assess internal controls and compliance
with laws and regulations for the village of Arlington Heights as a whole.


                                        - 12 –

        Our audit included an evaluation of the village of Arlington Heights FY 2011
and FY 2012 Single Audit Reports. The Single Audit Reports were prepared under the
provisions of OMB Circular A-133. We reviewed the independent auditor’s reports,
which disclosed no control weaknesses or significant noncompliance issues related
specifically to the Arlington Heights PD.




                                       - 13 –

                                                                                           APPENDIX II



                                AUDITEE RESPONSE



         Village of Arlington Heights



o        3j SouIIl Arlin~lon lidghts Itoad
         Ariln((ton Heights, Illinois 60005· 1499
         (847) 3@.5000
         W"bS;l<:: www . ,~h,cum




April 2, 20 14

Carol S. Taraszka
Regional Audit Manager
Chicago Regional Audit Office
Office of the Inspector General
U.S. Department of Justice
500 West iviadison Sireel, Suhe i 121
Chicago, Illinois 60661

Re: Village of Arlington Heights Police Department Equitable Sharing Program
    Activi ties Audi t

Dcar Ms. Taraszka:

The Village of Arlington Heights Police Department has reviewed the draft audit report on
Equitable Sharing Program Activities for the period of May 1, 2010, through April 30, 2012.
The audit found that the Village of Arlington Heights Police Department complied with
eq uitable sharing guidelines with resptX:t to pennissible uses orthe $1 ,393,971 in equitable
sharing funds received by the department. There were, however, four recommendation~
from the Department of Justice. Following is the Village of Arlington Heights official
response to the draft audit repon recommendations.

Recommendation I - Ensure that the Arlington Heights PO establishes procedures to confinn
tbat only 001 equitable sharing receipts arc contained within the ledger account created for such
receipts, and to make proper adjustments in the official accounting reco rds for any non-DOl
eq uitable sharing receipts assigned to this account.

Response I - We agree with the recommendation and since FY 2013 the Finance Department has
had access to the Department of lust ice Distribution Report, which enables the Finance
Department to reconcile the lustiee Funds. This allows the Finance Department to report only
DOJ equitable sharing receipts within the ledger account created for such receipts and adjust the
official accounting records for any non-DOl receipt.

Recommendation 2 -        Ensure that the Arlington Heights PO establishes procedures for
submitting accurate and complete Equitable Sharing Agreement and Certification Reports. These
procedures should include a process to appropriately categorize equitable sharing expenditures
on an ongoing basis, scparatcly account for and accurately compute interest income earned on
DOJ equitable sharing funds, and correctly report non-cash assets received.




                                                    - 14 –

Response 2 - We agree with the recommendatiun and since rv 2013 have implemented
procedurcs to submit appropriately categori7.cd equitable sharing expenditures. f::.aeh transaction
will be reviewed for the correct category by the Police Department, with follow up revicw by the
Finance Departmcnt. The Village of Arlington Heights' policy fur allocating interest was based
on the average cash balance of all seized funds and accounted for in the seizurc fund's interest
account. Beginning in FV 2013, the interest income earned has been computed and accounted
tor separately in the same revenue account that accounts for thc DO] equitable sharing receipts.
The department has been correctly reporting non-cash assets received since rv 2013 and only
has reported items trom federal seizures on thc certification rcports aftcr review by thc
Commander of Criminal Investigation Bureau .

Recommendation 3 - Ensure that thc Ar[ington Heights PO submits revised FY 2011 and FY
2012 Equitable Sharing Agreement and Annual Certification Reports that accurately and
completely reflect its equitable sharing activities during these time periods.

ReSPOnse 3 - We are in agreement to submit revised certification reports as follow up to this
audit and accurately rcport equitable sharing activities during these time periods.

Rccommendation 4 - Ensurc that thc Arlington Heights PO establishes procedures to maintain all
equitable sharing requests submitted to DOJ and consecutively number its cquitable sharing
request log as required.

Response 4 - Wt: agree with the recommendation and in response the Arlington Heights Police
Department has established procedures to maintain all equitable sharing requests submitted to the
DOl Tht:S<;: reque~ts (DAGs) will be consecutively numbered and kept in a log in the office of
the Commandcr of Criminal Investigalion Burcau. Thc proccdures will be incorporated In
Arlington Heights Police Department General Order; Police Department Control Funds 17-3.

Our goal is to fully comply with all req uirements of the equitable sharing program and we
appreciate the guidance from the Department of Justice Office of the Inspector General
throughout the audit.



                                 ~M~    G",ld Mooming
                                         Chief of Poi ice




                                                 2




                                            - 15 –

                                                                                         APPENDIX III



      U.S. DEPARTMENT OF JUSTICE RESPONSE


                                                   U.S. Department of Justice




                                                       Washing/on, D.c. 20530



                                                        MAR 2 1 2014



MEMORANDUM

TO:           Carol S. Taraszka
              Chicago Regional Audit Office
              Office OfInspecto~ ~
                               r General I.
FROM:         Jennifer Bickford        .    '   IT\j
              Acting Assistant De     C
              Asset Forfeiture and Money
                Laundering Section

SUBJECT:      DRAFT OIG AUDIT REPORT- Audit of the Arlington Heights Police
              Department's Equitable Sharing Program Activities, Arlington Heights, IL

        In a memorandum to Mythili Raman dated March 19, 2014, your office provided a draft
of the above referenced report, and requested comments and a response from the Criminal
Division. The Asset Forfeiture and Money Laundering Section (AFMLS) concurs with the
following recommendations:

              1. Ensure that the Arlington Heights PD establishes procedures to contirm that
                 only DOJ equitable sharing receipts are contained within the ledger account
                 created for such receipts, and to make proper adjustments in the official
                 accounting records for any non-DOJ equitable sharing receipts assigned to
                 this account.
              2. Ensure that the Arlington Heights PD cstablishes procedures for submitting
                 accurate and complete Equitable Sharing Agreement and Certification
                 Reports. These procedures should include a process to appropriately
                 categorize equitable sharing expenditures on an ongoing basis, separately
                 account for, and accurately compute interest income earned on DOJ
                 equitable sharing funds, and correctly report non-cash assets received.
              3. Ensure that the Arlington Heights PD submits revised FY 2011 and FY 2012
                 Equitable Sharing Agreement and Annual Certification Reports that
                 accurately and completely reflect its equitable sharing activities during these
                 time periods.
              4. Ensure that the Arlington Heights PD establishes procedures to maintain all
                 equitable sharing requests submitted to DOJ and consecutively numbers its
                 equitable sh~ring request log as required.




                                           - 16 –

       Upon submission of the final report for the above referenced audit, AFMLS will work
with the Arlington Heights Police Department to take the necessary actions to close out the audit
report recommendations. Please feel free to contact me at (202) 514-1470 with any further
questions.


cc:   Denise Turcotte
      Audit Liaison
      Criminal Division

      Richard P. Theis
      Assistant Director
      Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Division




                                             - 17 –

                                                                       APPENDIX IV



                  OFFICE OF THE INSPECTOR GENERAL

                 ANALYSIS AND SUMMARY OF ACTIONS

                   NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to the Arlington Heights Police
Department (Arlington Heights PD) and the U.S. Department of Justice Asset
Forfeiture and Money Laundering Section (AFMLS). The Arlington Heights PD’s
response letter is incorporated in Appendix II of this final report, and AFMLS’s
response is incorporated as Appendix III. The following provides the OIG analysis of
the responses and summary of actions necessary to close the report.

Recommendation:

   1.	 Ensure that the Arlington Heights PD establishes procedures to confirm
       that only DOJ equitable sharing receipts are contained within the
       ledger account created for such receipts, and to make proper
       adjustments in the official accounting records for any non-DOJ
       equitable sharing receipts assigned to this account.

      Resolved. Both the Arlington Heights PD and AFMLS concurred with our
      recommendation. AFMLS stated that it will work with the Arlington Heights PD
      to ensure the necessary actions are taken to address the recommendation. In
      its response, the Arlington Heights PD stated that the village of Arlington
      Heights Finance Department now has access to the Distribution Report
      generated by DOJ. The Arlington Heights PD further explained that access to
      this report will allow the Finance Department to ensure only DOJ equitable
      sharing receipts are reflected in the ledger account created for such receipts
      and make any necessary corrections for non-DOJ equitable sharing receipts
      recorded to this particular ledger account.

      This recommendation can be closed when we receive evidence that the
      Arlington Heights PD has implemented formal, written procedures to confirm
      that only DOJ equitable sharing receipts are contained within the ledger account
      created for such receipts. In addition, these procedures should include steps to
      make proper adjustments in the official accounting records for any non-DOJ
      equitable sharing receipts assigned to this account.

   2.	 Ensure that the Arlington Heights PD establishes procedures for
       submitting accurate and complete Equitable Sharing Agreement and
       Certification Reports. These procedures should include a process to
       appropriately categorize equitable sharing expenditures on an ongoing
       basis, separately account for and accurately compute interest income
       earned on DOJ equitable sharing funds, and correctly report non-cash
       assets received.

      Resolved. Both the Arlington Heights PD and AFMLS concurred with our
      recommendation. AFMLS stated that it will work with the Arlington Heights PD
      to ensure the necessary actions are taken to address the recommendation. In

                                        - 18 –

   its response, the Arlington Heights PD stated that it has implemented
   procedures to ensure it appropriately categorizes equitable sharing
   expenditures. Specifically, the Arlington Heights PD stated that the Arlington
   Heights PD will review the category applied to each transaction, and that the
   village of Arlington Heights Finance Department will conduct a follow-up review
   of the categories. The Arlington Heights PD also stated that the village of
   Arlington Heights’ policy for allocating interest was based on the average cash
   balance of all seized funds and accounted for in the seizure fund’s interest
   account. However, the Arlington Heights PD stated that beginning in FY 2013,
   the village of Arlington Heights Finance Department is computing and
   accounting for interest income earned on DOJ equitable sharing receipts
   separately in the same revenue account used for capturing DOJ equitable
   sharing receipts. The Arlington Heights PD further stated that it is now
   correctly reporting non-cash assets received.

   This recommendation can be closed when we receive evidence that the
   Arlington Heights PD has implemented formal, written procedures for
   submitting accurate and complete certification reports to include the
   appropriate categorization of equitable sharing expenditures on an ongoing
   basis, separately accounting for and accurately computing interest income, and
   correctly reporting non-cash assets received.

3.	 Ensure that the Arlington Heights PD submits revised FY 2011 and
    FY 2012 Equitable Sharing Agreement and Certification Reports that
    accurately and completely reflect its equitable sharing activities during
    these time periods.

   Resolved. Both the Arlington Heights PD and AFMLS concurred with our
   recommendation. AFMLS stated that it will work with the Arlington Heights PD
   to ensure the necessary actions are taken to address the recommendation. In
   its response, the Arlington Heights PD stated that it would submit the revised
   certification reports that accurately and completely reflect its equitable sharing
   activities.

   This recommendation can be closed when we receive evidence that the
   Arlington Heights PD submitted revised FY 2011 and FY 2012 certification
   reports that accurately and completely reflect its equitable sharing activities
   during these time periods.

4.	 Ensure that the Arlington Heights PD establishes procedures to
    maintain all equitable sharing requests submitted to DOJ and
    consecutively number its equitable sharing request log as required.

   Resolved. Both the Arlington Heights PD and AFMLS concurred with our
   recommendation. AFMLS stated that it will work with the Arlington Heights PD
   to ensure the necessary actions are taken to address the recommendation. In
   its response, the Arlington Heights PD stated that it has established procedures
   to address our recommendation, and that the procedures will be incorporated
   into an existing Arlington Heights PD order.
                                      - 19 –

This recommendation can be closed when we receive evidence that the
Arlington Heights PD has implemented formal, written procedures to ensure
that all equitable sharing requests submitted to DOJ are maintained and that
the requests are consecutively numbered in its equitable sharing request log.




                                 - 20 –

